                       U.S. Environmental Protection Agency 	                                                08-P-0273
                                                                                                     September 23, 2008
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review           Management of EPA Headquarters Internet
The Office of Inspector          Protocol Addresses Needs Improvement
General contracted with
Williams, Adley & Company,        What Williams, Adley & Company, LLP Found
LLP to conduct the annual
audit of the U.S. Environ-       Processes used to assign and track IP addresses within EPA Headquarters in
mental Protection Agency’s       Washington, DC, need strengthening to enforce accountability. Information
(EPA’s) compliance with the      provided by EPA representatives to support vulnerability testing of the
Federal Information Security     Headquarters’ network revealed that Agency personnel were not aware of the IP
Management Act. Williams,        addresses assigned to them. This occurred because EPA needs a:
Adley & Company, LLP                 •	 Process to track the assignment of IP addresses
conducted network
                                     •	 Method to identify all active and assigned IP addresses
vulnerability testing of the
Agency’s local area network      Vulnerability testing of the EPA Headquarters network identified 391 IP
located at the EPA’s Head-       addresses with high-risk and/or medium-risk vulnerabilities. Although EDSD
quarters in Washington, DC.      personnel conducted research to identify the Program Offices responsible for the
                                 IP addresses, EDSD could not identify the offices responsible for 273 of the IP
Background                       addresses. As a result, 18 high-risk vulnerabilities exist where the responsible
                                 EPA offices could not be contacted to remediate the risks. Furthermore, without a
The National Computer            full accounting of assigned IP addresses, EPA cannot be assured that its patch
Center (NCC), located in         management or incident response processes are effective.
Research Triangle Park,
North Carolina, is responsible    What Williams, Adley & Company, LLP Recommends
for managing the assignment
of Internet Protocol (IP)        Williams, Adley & Company, LLP recommends that EPA:
addresses within EPA. The
Enterprise Desktop Solutions      •	 Take immediate action to address all identified network security weaknesses
Division (EDSD) is                   and start risk mitigation actions to reduce the risks from the remaining
responsible for the network          18 unidentified IP addresses.
infrastructure required to        •	 Develop and implement procedures to document and keep current a complete
support end user                     inventory of all IP addresses assigned to EPA Headquarters.
requirements.                     •	 Develop and implement a revised IP address allocation scheme to assign 

                                     entire IP address blocks to Program Offices to eliminate fragmentation and 

                                     improve security administration. 

                                  •	 Implement a process that augments the current vulnerability testing process
For further information,
                                     used to identify active Headquarters IP address with the use of other network
contact our Office of                monitoring tools.
Congressional and Public          •	 Develop Plans of Actions and Milestones for each recommendation.
Liaison at (202) 566-2391.
                                  Due to the sensitive nature of the report’s technical findings, the full report is not
                                  available to the public.
